           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    FOLLOW-UP: SOCIAL SECURITY
           NUMBER CARDS
        ISSUED AFTER DEATH


      May 2011    A-06-10-20136




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      May 20, 2011                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Social Security Number Cards Issued After Death (A-06-10-20136)


           OBJECTIVE
           Our objective was to determine the status of corrective actions the Social Security
           Administration (SSA) took to address findings and recommendations in our April 2005
           report, Social Security Number Cards Issued After Death (A-06-03-13078).

           BACKGROUND
           The Social Security number (SSN) has become a primary means of identification in both
           the public and private sectors. As use of the SSN has grown, so has identity fraud.
           SSA has a role in combating identity fraud through the prevention and detection of SSN
           misuse. Each year, SSA processes approximately 6 million original and 12 million
           replacement Social Security card applications. 1

           SSA policy prohibits issuance of replacement cards when the numberholder is
           deceased. 2 Our April 2005 report concluded that SSA did not comply with this policy.
           We also determined that SSA issued multiple replacement SSN cards to applicants
           after a date of death was posted on SSA’s records; paid survivor benefits to auxiliaries
           of apparently living individuals; and accepted questionable proof of identity documents
           when it processed applications for replacement cards.

           In response to our findings and recommendations, SSA agreed to remind field office
           employees of replacement card policies and review procedures to ensure discrepancies
           are promptly resolved when information provided by applicants for replacement cards
           conflicts with information in SSA’s records.




           1
               SSA’s Performance and Accountability Report for Fiscal Year (FY) 2010, p. 92.
           2
               SSA, POMS, RM 10225.090.
Page 2 - The Commissioner


In May 2010, we obtained updated data identifying all instances from May 2007 through
April 2010 where SSA issued replacement SSN cards although Agency staff recorded a
date of death in the numberholders’ Numerical Identification (Numident) record. See
Appendix B for detailed information regarding the scope and methodology of this
review.

RESULTS OF REVIEW
SSA took action to address findings and recommendations in our April 2005 report. As
illustrated in Table 1, the frequency of replacement card issuances declined significantly
in instances where SSA records indicated the numberholder was deceased. 3


                              Table 1. Total SSN Cards Issued to Numberholders
                               with a Date of Death on their Numident Record

                        763
           800                       665
           700                                    517
           600
           500
           400
           300
           200                                                    88       60          43
           100
             0
                     2002        2003         2004      May 2007 to May 2008 to May 2009 to
                                                         Apr 2008    Apr 2009    Apr 2010



The overall trend is downward. However, contrary to SSA policy, from May 2007 to
April 2010, SSA issued 191 replacement cards to numberholders when its records
indicated the individuals were deceased. These discrepancies represented only a
minute fraction of replacement cards issued each year.

•     In 170 cases, we believe SSA issued the replacement cards as a result of
      administrative errors. For example, based on information provided during death
      claim processing, it may be necessary to update the Numident record of a deceased
      person. After processing the update, the SSA employee must make a systems input
      to suppress replacement card issuance. It appeared SSA employees did not always
      make inputs necessary to suppress replacement card issuance.




3
    We did not obtain data for January 2005 through April 2007.
Page 3 - The Commissioner


•   In 17 cases, we could not determine why SSA issued the replacement cards.4 In
    7 of these 17 cases, SSA issued replacement cards and paid survivor benefits to the
    applicant’s auxiliary beneficiaries.5

•   In four cases, SSA records contained evidence that indicated the numberholders
    were actually alive and death entries on their records were erroneous. As of
    February 2011, these numberholders’ personally identifiable information was
    available for viewing on at least one public Internet site. 6

In February 2011, we provided the 21 cases mentioned above to SSA’s Office of
Operations (Operations) staff in Baltimore, Maryland. Operations plans to review these
cases.

CONCLUSION
The number of instances where SSA issued replacement cards to apparently deceased
numberholders declined significantly since our prior audit. We identified a small number
of questionable replacement card issuances and forwarded the cases to SSA
Operations staff for action. We believe the discrepancies were isolated and not
indicative of systemic problems. As a result, this report contains no recommendations.

AGENCY COMMENTS
SSA stated it would continue to research the cases cited in our report and agreed to
provide an update on its findings. SSA comments are included in Appendix C.




                                                 Patrick P. O’Carroll, Jr.




4
  Dallas Regional Office staff reviewed these cases and could not explain the replacement card
issuances.
5
 SSA paid approximately $179,000 in survivor benefits to nine auxiliary beneficiaries of these
numberholders.
6
  SSA maintains a record of reported deaths known as the Death Master File and provides this
information to the Department of Commerce for sale to the public. Various public Websites purchase the
Death Master File and make it accessible via the Internet.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
FY           Fiscal Year
Numident     Numerical Identification
OIG          Office of the Inspector General
Operations   Office of Operations
SSA          Social Security Administration
SSN          Social Security Number
Form
SS-5         Application for a Social Security Card
                                                                    Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to issuing Social Security number (SSN) cards and prior Office of the Inspector
    General reports pertaining to enumeration.

•   Interviewed Dallas Regional Office staff regarding procedures used in issuing SSN
    cards.

•   Obtained a data extract from SSA’s Numerical Identification (Numident) record and
    identified 191 instances from May 2007 through April 2010 where SSA issued an
    SSN card after a date of death entry on the numberholders’ record.

•   Requested Applications for a Social Security Card (Form SS-5) from SSA’s Office of
    Central Operations, Center for Material Resources. We determined whether there
    were notable differences between numberholder information provided on Forms
    SS-5 and information in SSA’s records.

•   Determined whether records contained information to explain why SSA issued
    replacement SSN cards although there was a date of death in the numberholders’
    Numident records.

•   Retrieved and reviewed the Master Beneficiary, Modernized Enumeration System,
    and Numident Records for our audit population.

We conducted our audit between September 2010 and January 2011 in Dallas, Texas.
We determined that the data used for this audit were sufficiently reliable to meet our
audit objective. The entity audited was the Office of Deputy Commissioner for
Operations. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                                   Appendix C

           Agency Comments




                                       SOCIAL SECURITY
MEMORANDUM


Date:      May 10, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up: Social Security Number
           Cards Issued After Death” (A-06-10-20136)--INFORMATION

           Thank you for the opportunity to review the draft report. I am pleased with your findings.
           We will continue to research the 17 unexplained cases cited in your report, and will update
           you on our findings.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Chris Molander, at extension 57401.
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ronald Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager

Acknowledgments

In addition to those named above:

   David McGhee, Senior Auditor

   Joe Cross, Information Technology Specialist

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-20136.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
